Department of Health and Human 
                                    Servces
                OFFICE OF

           INSPECTOR GENERAL





DRUG ABUSE TREATMENT WAITING

LIST REDUCTION GRANT PROGRAM





                                   stRVICts
                             t-



                                              Richard P. Kusserow
                                              INSPECfOR GENERA
                        op

                              1ti'd1a
                                                  OEI-02-90- 0020
              EXECUTIVE SUMMAR
PUROSE
This inspection assesses the extent to which the Drug Abuse Treatment Waiting List
Reduction Grant Program reduced waiting lists for drug treatment by expanding the
capacity of existing programs.

BACKGROUN
The Drug Abuse Treatment Waiting List Reduction Grant Program , established under
Section 509(E) of the Public Health Servce Act , was created to reduce treatment
waiting lists by expanding existing drug treatment programs. Congress authorized $100
milion for grants under the program , $75 milion of which was to be used in Fiscal
Year (FY) 1989 and the remaining $25 milion in FY 1990. Six-nine grants covering
361 local programs were awarded. An additional $40 milion for program grants was
reauthorized for FY 1991.

Both public and non- profit private entities were awarded grants , either independently
or through a " State Umbrella Application. " These grantees had to fulfil four
requirements: (1) have experience in delivery of treatment servces for drug abuse;
(2) demonstrate , as of the date the application was submitted , success in carrying out a
program approved by the State; (3) be unable to admit any individual into treatment
earlier than one month after the individual requests care; and (4) provide assurances
that the program would have access to financial resources sufficient to continue its
expanded capacity after the grant is terminated. The grant was originally awarded for
a period . of 12 months. It was later amended to allow for a three or six month
extension in response to problems that prevented programs from being able to spend
their money within the allotted time.

METHODOLOGY

Telephone interviews were held with 98 grantees from a random sample of 100 , 22 of
the 23 State Agencies relating to our sample grantees , and 14 agencies which routinely
refer clients to grantee programs. For purposes of this study, the State grantees are
called the State and all other grantees and umbrella subgrantees are called grantees
unless otherwse defined.
FININGS
ALOST AL GRAES HAVE INCRED CAPACIT AN MOST HAVE
REDUCE THIR WAIG USTS
Almost all grantees (94 percent) have already achieved their expansion goals or
anticipate doing so by the end of their extension periods. Most have increased their
capacity. Eighty-six percent have added to their number of treatment slots and 78
percent serve more individuals now than before. Additionally, 75 percent report
reducing their waiting lists and 72 percent also report reducing their waiting periods.

Even with the grant , almost all grantee and State respondents believe there is a
continued shortage in the number of publicly funded drug treatment slots in their
State.

REPONDENT' VIWS OF PROGRA'S SUCCE AR                              TEERED
CONCERNS OVER          CONTD FUING
While 60 percent of the grantees rate the waiting list reduction grant program
successful , 40 percent of these feel it can be truly successful only if continued funding
is available. Two- thirds of the grantees who do not rate the grant program successful
cite difficulties with continued funding; more than half the States rate it unsuccessful
for the same reason.

Many grantees and States consider the grant a temporary solution. While over half
the grantees are certain of obtaining continued funding, more than half of these
believe it wil only be for a limited time. States express similar concerns.

REPONDENT EXPERIENCED SEVERA ADMISTRTI PROBLEMS
Almost two- thirds of grantees experienced some delay in receiving their funds , with
most blaming the bureaucratic process. Similarly, over half the States report delays      in
receiving their money from the Federal government.

Respondents believe the grant period should be longer, such as a three-year funding
cycle , in light of the lengthy State legislative process and the kinds of problems
experienced in expanding servces.

WAIG USTS ALNE AR                  NOT VIWED AS A GOOD INICATOR OF
NEED

Most respondents believe treatment need is greater than waiting lists reflect. While
most could not offer a better measure of treatment need , some suggest alternatives
such as conducting prevalence studies , looking at program utilzation rates, recording
data on calls to treatment hotlines , querying referral sources and performing outreach.
Some respondents believe measuring waiting periods would be more accurate.
RECOMMNDATIONS

The Alcohol , Drug and Mental Health Administration (ADMA) should:

      Assure that waiting lists are not used as the sole basis for awarding a grant , but
      are considered in conjunction with other indicators of need such as utilzation
      rates and prevalence studies.

      Support a longer grant period in future legislation of this tye. Respondents
      recommend at least a three-year funding period to correspond with the States
      legislative cycles and to allow them time to start up and to get clients into
      treatment. At a minimum , some respondents recommend a longer time to
      draw down the funds.

      Require any future grants to have a maintenance of effort clause to enable
      programs to increase capacity without experiencing a concurrent cutback in
      State funds.



      Develop a uniform definition of a waiting list and a systematic way of
      maintaining a waiting list for use by all States. This wil help both in planning
      future legislation and in providing more meaningful data on a current basis.

COMMNT
Comments on the draft report received from PHS, ASPE and the Office of National
Drug Control Policy (ONDCP) concur with the recommendations of this report.
Suggestions for changes in the wording and clarifications in the text have for the most
part been incorporated into the final report. The actual comments can be found in
Appendix II.




                                            iij
                     TABLE OF CONTENTS
EXECU SUMY
INODUCfON                 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 .   0000000000000001


  Purpose 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 00 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 1
  Background 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 1

METHODOLOGY 000000000000000000000000000000000000000000000000


FININGS       0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 . 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0   0000000000000000000004


  Almost All Grantees Have Increased Capacity and.
  Most Have Reduced Their Waiting Lists 0 0 000 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0

  Respondents ' Views of Program s Success are Tempered
  by Concerns Over Continued Funding 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 .

  Respondents Experienced Several Administrative Problems 0 0 0 0 0 0 0 0 0 0 0 0 . 0 0

  Waiting Lists Alone Are Not Viewed as a Good
  Indicator of Treatment Need 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 . 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 9


RECOMMATIONS 000000000000000000000000000000000000000000

APPENDIX I        0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0   000000000000000000



APPENDIX n          0 0 0 0 0 0 0 0 0 0 0 0 . 0 0 0 0 . 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 

                         INTRODUCTION

PUROSE
This inspection assesses the extent to which the Drug Abuse Treatment Waiting List
Reduction Grant Program reduced waiting lists for drug treatment by expanding the
capacity of existing programs.

BACKGROUN
Drug abuse in the United States commands much public concern and attention. It is
generally believed that there are notenough drug treatment programs available for all
individuals seeking treatment. This is particularly true in areas of high heroin and
cocaine/crack abuse and in low- income communities. Experts agree that if more
treatment programs were available in areas where the demand for treatment exceeds
the capacity, many more would attend them.

Legilative History



Drug and alcohol treatment programs have always been primarily funded by State
governments with a percentage provided by the Federal government through the
Alcohol , Drug Abuse , and Mental Health Servces (ADMS) and the Alcohol and Drug
Abuse Treatment and Rehabiltation (ADTR) block grants. To supplement these
grants the Drug Abuse Treatment Waiting List Reduction Grant Program was
established. Its purpose was to help existing drug abuse treatment programs rapidly
expand their capacity to serve drug abusers who are waiting for treatment in an effort
to provide " treatment on demand" for all. The authorization authority is found in
section 509(E) of the Public Health Servce Act , as amended by Public Law 100- 690
the Anti- Drug Abuse Act of 1988. The Waiting List Reduction Grant Program is
administered by the Office of Treatment Improvement (OTI) in the Alcohol , Drug
and Mental Health Administration (ADAMHA).

Drug Abuse Treatment Waitg List      Redtin Grants
To receive a waiting list reduction grant , applicants had to fulfil four requirements:
(1) have experience in delivery of treatment servces for drug abuse; (2) demonstrate
as of the date the application   was submitted , success in carryng out a program
approved by the State; (3) be unable to admit any individual into treatment earlier
than one month after the individual requests care; and (4) provide assurances that the
program wil have access to financial resources sufficient to continue its expanded
capacity after the grant is terminated. In addition , the State was required to provide
letters of assurance giving applicants top priority for continued funding once the
 Federal grant terminated.
Programs could apply either independently or in a " State Umbrella Application. " In
an " umbrella " the State submitted one application on behalf of the programs and in
some cases provided technical assistance and support to the individual programs. A
State was able to use up to two percent of the grant funds to cover the administrative
costs of managing the grant. The amount of the grant was based on the number of
new treatment slots scheduled to be created by the program multiplied by the annual
cost of each specific tye   of slot created. The grant was originally awarded for a
period of 12 months. It was later amended to allow a three- or six-month extension in
response to problems that prevented programs from being able to spend their money
within the allotted time.

The OTI has given these grants to both public and non- profit private entities. Funds
were usually awarded quickly, with priority going to those treatment programs judged
to have the greatest need to expand their capacity. The programs chosen were those
that proposed to create the most new treatment slots , were part of a State-wide plan
to expand treatment capacity, provided State verification of their waiting lists and
submitted the strongest assurances that funding for their expanded program would
continue after the grant s termination.

Congress authorized $100 milion for grants under the program, $75 milion of which
was to be appropriated in Fiscal Year (FY) 1989 and the remaining $25 milion in FY
1990. Twenty-nine grants , totallng $74. 5 milion , were awarded by September 30
1989 , and an additional 40 grants , totallng $25 milion , were given out by April 1
1990. These 69 grants covered 361 local programs in 34 States, the District of
Columbia and Puerto Rico. Twenty-one programs received funding directly and the
remainder received funds through umbrella applications submitted by States. When
the funds were awarded , the 361 grantees had an existing capacity of 76 772 slots; the
Waiting List Reduction Grant Program resulted in the funding      of 20   073 new slots , a
26- percent increase.

Re-authoriatin
The Senate re-authorized an additional $40 milion for program grants in FY 1991.
The re-authorization legislation includes the following provisions: the term "waiting
list " is called "waiting period" ; priority is given to programs servng pregnant and
postpartum women; programs are encouraged to use up to 50 percent of their grant to
provide aftercare in order to prevent relapse; and current and previous grantees can
re-apply for funds. Also, the $40 milion had to be obligated by December 31 , 1990
and OTI was required to prepare a report to Congress on the efficacy of the program.

 METHODOLOGY

 The first phase included selection of a random sample of 100 grantees and
 subgrantees out of a universe of 201 who received money during the first round of
 funding (see Appendix I). The team intervewed 98 of these grantees who were from
 23 States and represented a mix of treatment modalities. The funding ranged from
   568 for two slots to $3 152, 500 for 845 slots. The grantees were asked by phone to
(1) provide statistical data relating to the size and duration of their waiting lists , the
number of persons served and the number of treatment slots; (2) indicate the extent
to which their program has been able to secure continued funding; and (3) give their
views of waiting lists and this type of one- time funding. Annual reports and
supporting documentation relating to waiting list data and continued funding was
requested which , when received , verified verbal responses.

Second , 22 of the 23 State Agencies relating to our sample grantees were queried by
telephone. Nineteen received umbrella grants; the remaining three did not but had
independent grantees in their State. All were asked about the effectiveness of a one­
time grant , the success of grantees in obtaining permanent funding, and the validity of
waiting lists as a measure of treatment need.

For purposes of this study, the State grantees and those States that did not receive
grants are called the State and all other grantees and umbrella subgrantees are called
grantees , unless otherwse defined.

Third , a subsample of 14 agencies who routinely refer clients to grantee programs
were asked by telephone whether it was now easier to get clients into the grantee
program. These referring agencies include probation departments , courts , hospitals
and local drug and alcohol agencies in various parts of the country.
         .......................
          ,....................
       .......
       ..... - .... . .. .. . . . ...
                - .......
                  -       ...          .-........
                                  ... ."" ... ...   ,........
                                                     . ..,......
                                              . . ....    .. .. ......
                                                          ...                                     ......................................
                                                                                                    ................ ,...................




                                                                    FINDINGS

ALOST AL GRAES HAVE INCRED CAPACIT AN MOST HAVE
REDUCED THIR WAIG LISTS

Most Grantees Have Exand                                          Thir Programs

Almost all grantees (94 percent) have already achieved their expansion goals or
anticipate doing so by the end of their extension periods; the remaining six grantees
were not certain because of slow start-ups and diffculty in acquiring additional staff
and space. In expanding their programs , most grantees used grant funds for new staff
increased salaries of existing staff, treatment servces , building and renovations
operating expenses , equipment and supplies.

Most grantees have increased the capacity of their program. Eighty-six percent have
added to their number of treatment slots and seventy-eight percent serve more
individuals now than they did before the grant (Graph I below). In some cases , while
programs increased slots , now that the grant program has concluded they serve fewer
individuals , primarily because they no longer have funding to treat that increased
number of indigent clients. Amongst grantees , a slot is most commonly defined for in­
patient programs as a bed; for out- patient programs i t is the abilty to treat one
individual in a given period of time or a unit of servce.

                                                                                   GRAPH I
                         MOST GRANTEES HAVE                                                                      MOST GRANTEES SERVE

                              I NCREASED SLOTS                                                                        MORE CL I ENTS
10()                                                                                       10()
                                                                             86H

                                                                                         .. BD1 ...........................................

                                                                                                                                                 7811......
 BD1


 601                                                                                     .. 601


 401 ..                                                                                  .. 401 ..



 201 .
                  1011                                                                                     711
                                                 411


           . OF GRNTEE                    " OF GiEES                     " OF GRANTEES                 " OF GRAHTEE      " OF GiEES          " OF GRANTEE

                                                                         WITH INCSED
          '11TH      N.R                 WITH DECREASE
                                                                            SlTS
                                                                                                     '11TH SA N.ER
                                                                                                       OF CLIENS
                                                                                                                          '11TH FEWR
                                                                                                                              ers
                                                                                                                            CL I
                                                                                                                                               '11TH MJRE
                                                                                                                                                 CLIENTS
              OF SLOTS                       SLOTS




The remaining grantees do not report increased capacity (Graph I above). Some have
the same number of slots and serve the same number of clients. A few grantees
explain that the State cut their funding an amount equal to the grant. One grantee
represents the sentiments of others by saying " The block grant was cut (by the State)
right before the waiting list dollars came , so the waiting list dollars didn t increase
anything, it just allowed us to continue at the same level." This was reported although
      , ," "                    ."""
                               ......
                                 .. .. '"   ... .- . .-.....
                                       --.....
                                         - ...
                                     ,..... -       ..... -         ... - ....................
                                                        . .- .........-.-..............
                                                               . ..,..
   ,..".... '. ... ' - .....
                                                                                                 '" ... "




the Request for Application clearly states Grant funds must be used to supplement
not supplant , existing treatment service delivery activities . Others initially expanded
their programs , but had to cut back once their grant was terminated because of a lack
of continued funding. A few reduced their programs for reasons unrelated to the
grant.

Most Grantee Have    Reded Thir Waitg Lists and Waitg                                                        Per
Seventy- five percent of grantees report a reduction in their waiting lists , including nine
who no longer have a waiting list (Graph II below). The 22 perce t of grantees who
report an increase in the size of their waiting lists most often mention that demand for
their program increased when they received grant funding. As one State respondent
asserts Demand is driven by factors relating to awareness of servces. " Another
states As treatment becomes more available , more people step forward.

                                                           GRAPH II
                                               MOST GRANTEES HAVE

                                           REDUCED WA I T I NG LISTS
                     1001



                      801 ....                                                                              5'" ....





                      601 .. ­


                      401 ......

                      201 ..
                                         316


                                       GRANTEES                           GRNTEES                     11 OF GRNTEES
                                 WITH SAE SIZE                    WI TH INCREASED                     WITH DECREAseO

                                 WAITIII LISTS                     WAIT1tG LISTS                      WAITItG LISTS





The size of waiting lists varies significantly. Of the programs surveyed , waiting- list size
ranges from between 2 to 408. The waiting- list size is priarily determined by
 program size and by tye of treatment modality. For instance , methadone
 maintenance programs generally tend to have less turnover and, therefore , larger lists.

 Of the fourteen referring agencies surveyed , six mention that clients whom they refer
 to grant- funded programs have a shorter wait now to enter those programs than they
 did before the grant; one reports that its clients no longer have to wait.
                              ....... -
                                      . .....              ,...........................

                                                              .........................
                                                               . . . . . . ... .. . . .. . . . . .. .
                                          . . . .... ."- .." .- .                                           . .. ......
                                                                                                 .... . ... .             .




Almost three- quarters of grantees (72 percent) also report a reduction in their waiting
periods , the number of days a client must wait before entering a program (Graph III
below). They       include eight programs whose waiting times have been eliminated.
with   waiting- list size , the range of waiting periods also varies widely, from a few days
to more than one year.


                                                                    GRAPH III
                                                     MOST GRANTEES HAVE

                                             REDUCED WA I T I NG PER IODS
                       10D1



                       8D1 .... ­
                                                                                                          7211



                       6D1 ...............




                       4D1




                                    " OF GRANTEES                      " OF GRNTEES                  . OF GRANTEES

                                   WI TH SAE SIZE                      WITH I flREASED              WITH r.CAEASEO
                                  wAITItG PERIOOS                     WAITIfI PERIODS               WAITI   PERIODS




More Women and Minorities Were Served

Over one- quarter of grantees (27 percent) notice an increase in the percentage of
minorities served in their program since the grant; similarly, almost one- third of
grantees (32 percent) notice a change in the number of women served. Respondents
report both of these increases are attributable at least in part to the grant program.
One grantee remarks that the abilty to serve more clients allows a program to
consequently serve more minorities and women , particularly pregnant and post-partum
women in need of services. One grantee states that with grant funding they were able
to hire bilngual counselors to do outreach for Hispanic addicts; another explains that
they specifically targeted African-Americans with grant funds.

Respondnts Claim a Shortage of Pulic Drug                                        Treatmt Prgrms

Almost all grantee and State respondents agree that there is a continued shortage in
the number of publicly funded drug treatment slots in their State. Many, however
mention that there are available slots in private programs for those who can pay for
such treatment themselves or who have insurance. One State respondent asserts that
 If you have the right kind of insurance you can get into any program anywhere , but
most people seeking treatment have no insurance. " Another agrees: " Private
                  , "                     , "             , "               , "




programs are prolific. City programs are the treatment of last resort so they are
inundated with those not eligible for Medicaid.

In general , respondents feel there are more addicts needing treatment than there are
programs to treat them. When asked if there are enough treatment slots in her State
to serve the number of addicts seeking treatment , one grantee responds If that were
        we wouldn t have waiting lists. Addicts should really be able to get treatment
the case ,
on demand. " Other respondents mention a shortage of programs specific to a client
population, treatment modality or geographical       location.

REPONDENT' VIWS OF PROGRA'                         SUCCE AR TEMPERED BY
CONCERNS OVER              CONTD FUING
Respondents Lik Grant's Succes Wih Availbil            of Cont Fung
While 60 percent of the grantees rate the waiting list reduction grant program
successful , 40 percent of them feel it can be truly successful only if continued funding
is made available. Although States were required to provide letters of assurance
giving applicants " top priority " for continued future funding once the Federal grant
terminated , it was not a guarantee that continued funding would be available. Two-
thirds of the grantees who do not think the grant program is successful blame
difficulties with continued funding. These concerns about continued funding are
shared by States: less than half consider this grant program successful, with the
problem of continued funding the most frequently mentioned reason. One grantee
expresses the concern of many others when he states A one-year grant is a band-aid
when surgery is needed. We need more of a commitment from the State. " One State
respondent says         We hoped we d get State money (through the legislative process),
but without some absolute guarantee of State money the grant is no good. We never
know how finances wil be from one year to the next. This is a poor way for Congress
to give money. It gets things going and brings them to a screeching halt, which is
worse than not getting them at all.

Many Grantees and States Consr the Grant Program a Temporary Soluon

Over one- half of grantees are either very or fairly certain of obtaining continued
funding, but more than one- half of these believe it will only be for a limited time
blaming major cutbacks in the State budgets. Since they are unsure of the future
many grantees consider the grant program a short-term solution. One grantee voices
this common concern when she says Short- term funding allows for a temporary
solution to treatment needs in the community. Programs are developed to meet those
needs , which raises expectations in the community. Programs abruptly end, leaving
both addicts and the community disilusioned. " Only 38 percent of the grantees report
that their programs will continue indefinitely after the grant is terminated. Some
programs say they wil have to resort to client fees when the grant ends , but feel very
few clients , if any, can afford to pay for treatment.
      , "         , "                , "




Two- thirds of the States are certain the programs in their State will obtain continued
funding, but a quarter of them believe such funding will only continue for a limited
time. Many State officials feel they are " at the mercy of the Federal block grant and
State legislature " and cannot promise the programs indefinite funding. One State
respondent says   We were tied by our State legislature. It is even a political process
to get an item on our own budget proposal to send to the State.

Some Grantees   Belie   Th   Grant Program Gave A Wuuw of Opportit for
Treatmnt
Thirty- five percent of the grantees say the grant gave a window of opportunity to treat
those people who otherwse would not have gotten help, the indigent clients in
particular. Several States agree. One respondent sums up this sentiment when she
states The grant did turn some lives around and a lot of clients got treated who
wouldn t have before the grant , so for that reason the grant was very good.

REPONDENT EXPERINCED SEVERA ADMISTRTI PROBLEMS
Grantees and States Report Initl Delas in Drawig Down        Fun
Almost two- thirds of grantees (61 percent) experienced some delay in receiving their
funds , with most blaming the bureaucratic process. In one State , funds were dispersed
through several levels - from State to county to city - before actually reaching the
program. One State respondent voices the concern of many when he admits that the
 programs (in the State umbrella grant) experienced even bigger delays to get through
our bureaucracy.



Similarly, over half the States report delays in receiving their money from the Federal
government. One respondent states We can spend money as long as we get the
(grant) award letter. Getting the award letter late delayed us. " Another explains that
while all five programs on the State application were approved , only two of these
received funding, so that the State was forced to wait to see which programs got
money and how much. Another State blames the delay on the paperwork needed to
obtain funding.



Delays in receiving funding also resulted in many of the extensions requested by
grantees to complete their expansion. Seventy percent of grantees required extensions
of up to six months. The most frequently cited reasons include: (1) slow start-ups due
to delays in obtaining funding; (2) difficulties in hiring new staff; (3) problems in
procuring additional space; and (4) time needed to renovate present quarters.

 Grantees and States Want a Diferent Funing Cycle     for the   Grant Program

 State respondents believe the grant period should be longer , such as a three-year
 funding cycle , due to the lengthy State legislative process. States would like more time
 to adjust their budgets , and feel one year is not enough time to develop a permanent
                                                                         , "




alternative funding source. In the absence of increased funding, some recommend
lesser amounts per year for a longer period. At the very minimum they recommend at
least a longer time to draw down the funds. As one respondent states It was an
incredible hassle for one year. If they do it again they should do it for a minimum of
three years , even if less money is given each year. " Respondents would also prefer
that the grant fit into their funding cycle to reduce the problems which arise from the
differences in State and Federal fiscal years.

Grantees agree with the States , citing administrative and other problems experienced
in expanding services as reasons why a longer grant period is needed. The grantees
would like more time to find qualified staff, a particularly difficult problem in rural
areas. Adding new space and renovating existing quarters is time consuming,
especially if there are construction problems. Grantees also feel that one year is not
long enough to establish a presence in the community.

WAIG LISTS ALNE AR                NOT VIWED AS A GOOD INICATOR OF
TRTMNT NEED
Most Respondnts Say Treatmt Need is Greater Thn         Waitg Lists Refct

Two- thirds of grantees and more than half the States believe waiting lists do not give
an accurate picture of the number of people seeking treatment , nor do they reflect the
number needing treatment. One grantee reflects the' views of others in saying: "
waiting list does not reflect the true need for treatment. It often does not include the
discouraged addict , nor the non-referrals from discouraged referral sources. That is
when funding is scarce and lists are long, people tend to give up. That reduces
referrals, which equals shorter/smaller waiting lists , which deceives funding sources into
believing there is no problem. " A State grantee contends that "waiting lists are an
indicator of gross need for service , but are not accurate in showing magnitude.


In contrast ,
            15 percent of grantees believe that waiting lists are a good indicator of
treatment need , or at least the best measure available. They feel that waiting lists at
least show demand , if not the magnitude of demand.

More than half the grantees feel waiting lists underrepresent treatment need. Some
claim that this is a population that does not wait: people who call for treatment during
a crisis are not interested if not treated immediately. One grantee asserts that it is
traumatic if " there is a waiting- list message on a machine - it is like a suicide hotline
putting you on hold. " Other grantees note there are some geographical areas not
having treatment programs at all.

Only 27 percent of States systematically collect waiting- list data. The definition of
waiting list varies from State to State and among different programs within a State.
Some programs evaluate prospective clients before putting them on a list; others keep
the names of all callers , and stil others do not routinely keep waiting- list data. Some
 keep people on the list and offer limited servces   while they wait. The States not
                                                         , "




routinely collecting waiting- list   data survey their programs when they get an external
request for such information.

Respondnt suggest better meases of          treatm   need

While most respondents could not offer a better measure of treatment need , some do
suggest alternatives. These include doing studies of the prevalence of drug and
alcohol use in a particular population, looking at utilzation rates in programs , and
recording data on calls to treatment hotlines or admission requests. Other suggestions
include conducting outreach programs , having a central intake process for referrals
and querying referral sources such as hospitals and courts.

Some respondents thought that measuring waiting periods would be a more accurate
indicator than waiting lists. As one respondent says Waiting periods tell the length of
time someone must wait before getting treatment. It gives a truer picture of needs.
Lists just tell how many - they could be waiting for weeks , months or years. " However
most feel that a combination of waiting lists and waiting periods gives a more
complete picture.
                  RECOMMENDA TIONS

The Alcohol , Drug and Mental Health Administration (ADMA) should:

      Assure that waiting lists are not used as the sole basis for awarding a grant , but
      are considered in conjunction with other indicators of need suc;h     as utilzation

      rates and prevalence studies.

      Support a longer grant period in future legislation   of this   tye. Respondents
      recommend funding for at least a three-year period to correspond with the
      States ' legislative cycles and to allow them time to start up and to get clients
      into treatment. At a minimum , some respondents recommend a longer time to
      draw down the funds.

      Require any future grants to have a maintenance of effort clause to enable
      programs to increase capacity without experiencing a concurrent cutback in
      State funds.



      Develop a uniform definition of a waiting list and a systematic way of
      maintaining a waiting list for use by all States. This will help both in planning
      future legislation and providing more meaningful data on a current basis.

COMM
Comments on the draft report received from PHS , ASPE and the Office of National
Drug Control Policy (ONDCP) concur with the recommendations of this report.
Suggestions for changes in the wording and clarifications in the text have for the most
part been incorporated into the final report. The actual comments received are in
Appendix II.

The PHS claims that receipt of the grant award letters was not delayed from the
Federal government , and that in every instance where a program received funds late
the State had access to the grant funds shortlyafter award , but chose not to access the
funds. Regarding this delay, we are reporting information obtained during the course
of the study. However , in light of PHS' s comments we will investigate this further.

The PHS claims that major construction and renovation costs were not allowed in the
grant s legislation. Respondents reported building and renovation in order to expand
services. In response to PHS' s comments we will also investigate this further.

The ONDCP characterizes this report as a condensed version of the Waiting List
Reduction Report prepared by OTI for Congress. In response , we would note that
the data for this report was collected from OIG telephone intervews and was not
based on OTI information. However, we provided OTI information based upon our
data for purposes of their report.
                             APPENDIX I


                            SAMLING METHODOLOY


The universe of drug abuse treatment centers initially consisted of 361 facilties;
however , the grants were awarded in two rounds. The first-round grants were
awarded to 201 treatment centers by September 30, 1989; the remaining funds were
awarded to 160 treatment centers by April 1, 1990. The universe was restricted to the
201 treatment centers which received. funding by the September 30 , 1989 date.

The universe of 201 facilties was stratified into three groups according to the date of
program completion or requested extension. The first group included 61 centers
which had successfully completed their expansion program. The second consisted of
72 centers which had requested a 3-month extension. The final group consisted of 68
centers that had requested a 6-mo nth extension. A uniform sampling fraction of one-
half was then applied to each stratum for a total sample of 100 treatment centers.
The following table ilustrates the sampling design:

                                        TABLE I

       Status of Facility           Universe             Sample Size
       Completed program
       3-month extension
       6-month extension

       Totals                         201                    100

As simple random sampling was used to draw the sample within each strata , any
estimates made from the sample are unbiased.
  APPENDIX II


COMM TO TH DRA REORT

----       .,.&- -,..                                   '\   ) , -:                                                :.:.:
                                                                                                                   . .-
                                                                                                                   ,   .:   ,.,......--
                                                                                                                                .;)
                                                                                                                                 .: ,;;':'" (j
                                                                                                                               .;,


                                                                                7r-                     4-

                                                                                      :.::I

                                                  &. HUMA SERVICES                               P"blk: H.. h So....

            DEPARTMENT OP HEATH



                 JUL 29   1991
Date

 From         Assistant Secretary for                  Health

 Subject       PHS Comments on the Office of Inspector General (OIG) Draft
               Report " Drug A.buse Treatment Waiting List Reduction Grant
               Program
               Inspector General, OS



               At t ached a   re the PHS commen                ts on         he subj ect      OIG re por t .

               The report provides useful data on the extent to which the Drug

               Abuse Treatment Waiting List Reduction Grant Program reduces
               waiting lists for drug treatment by expanding the capacity of
               existing programs.
               We concur wi       th the report               s re      commends t ions and have taken 0
               are taking action to                 implement them.

                                                                        0,

                                                                       Mason, M. D. , Dr.


               Attachment




                                                                                                                                 C) -..
                                                                                                                                 :-11
                                                                                                                                         rr;
                                                                                                                     =.,1
                                                                                                                               1_­
                                                                                                                                  r-:,

                                                                                                                            . . ;:1 ri:
                                                                                                                                     ')0
                              PDIG
                              DIG-AS

                                 DIG EI
                                 DIG-O!
                                 AlG-MP
                                 QGC/IG                  V r
                                 EXSEC

                                 DATE SE
               OF TH     LIC     TH S VICE (PHS' ON THE
        OFFICE OF INSPECTOR G       (OIG' DRAT REPOR
          DRUG ABUSE TREATMENT WAITING LIST  REDUCTION
                GRAT PROGRA, " OEI- 02-91-0Q420


General Comments

                                  comment on this Office of

We appreciate the opportunity to

Inspector General draft  report. The report provides important
                                                ADAM in
                                         type.
information and observations which will assist
structuring any future programs of this 


Inasmuch as the grantee in most cases for these grants waS the

State  the report should distinguish between the programs which

                                  grantees which were

were snbqrantees of the State and               application.
                                                   umrella
independents not attached to the state

The awards for this program were made in accordance
                                   announcement.
                                                     with
                                                 o the    the

                                                       knowledge

schedule published in the grant     this. program, receipt of

of grants management staff handling 

governent as stated in the report. 

                                      Fuds
the grant award letters was not delayed from  theavailable
                                            were  Federal
 to

States for drawdown two or three days following mailing of the

grant award. Therefore, unless there are other facts to

support the statement that Federal funds were delayed, we

                                      gove3:ent.
believe that statements should be removed
payment was delayed from the Federal

                                                   In everythat

                                           which indicate
                                   funds late, the State had

instance where a program received 

access to the grant funds shortly after award but chose not to

aCcess the funds.

                                          Office for Treatment

The reasons most frequently given to the-

Improvement staff by programs requesting extensions were:

 (1) subrecipients claimed that in order to
                                         to receive  theresubmit

                                            revise and   grant

funds from the State they were  required

                           State, and (2J subrecipients were

their applications to the     s requirements (such as

 required to meet their State                      funds, a

 legislati   approval) before being assured grant

                                   months.
 process that could take up to six 


 OIG Recommendation

                                                     with for

 Assure that waiting lists are not used as the sole basis other

 awarding a grant, but are considered in conjuncti

 indicators of need such as utilization rates and prevalence

 studies.
 PHS comment

                                                             scheduled
 We concur. The WaitingHowever,
                         List/Period Program ty
                                              is Expansi
                                                  no     Program
 for reauthorization.           a new capaei'
                                          1992 budget proposal.

 was proposed by the Department in the FY 

                                              s other than waiting

This program is proposed to include facto

list/period as criteria.   for award.

OIG Recommendation

support a longer grant period in future legislation of thisyear
type.  Respondents recommend funding for at least a three-
                                                  cycles and to
period to correspond with the States' legislati
allow them time to start up and to get clients into treatment.
At a min um, some respondents recommend a lQnger time to draw

down the funds.


PHS Comments

We concur. The new Capacity Expansion program is proposed for

a five year period.


OIG Recommendation
Require any future grants to have a maintenance of effort

clause to enable programs to inc ease capacity without

experiencing a concurrent cutback in State funds.


PHS Cornen
we concur. Any grant program to increase capacity without

experiencing a concurrent cutback in State funds should include

                                    use qrant funds to fund

a maintenance of effort olause. To
programs currently funded by the State is supplantation which

would not be allowed.
OIG Recommendation
                                                       States.
                                                          This
Develop a unifor. definition of a waiting list and a systemati


will help both in planning future basis.
                                        legislati
way of maintaining a waiting list for use by all

                                              and providing
more meaningful data on a current 

 PHS Comments


 We concur. We will define the parameters of an acceptable

 wai tinq list through a consensus development process with the
 field.
 Technical Comments


 Page i, second paragraph, "
509(e)"     should be "509(.E).
                 paraqriaph" (2) 1 atatement should be added
                                                           was
 Page i, third                    the date the applica.t.i
 stating, "demonstrate, as (,f
  submitted, success...
                              " ..




                                                           II
                                              grantees" means
Page ii, fifth paragraph, it is not clear if

subgrantees  the State as the grantees or direct grantees other

than the State.
Page ii, the fifth paragraph. the second sentence, and page 

last paragraph reads:      over half the States report delays

                                                         See our

in receiving their money from the Federal Governent.

                                             funds.
general comment regarding delays of Federal 

                                             Public Health

Page 1, third paragraph, ninth line, after "

                      II
service Act, " in&ert as amended by
                                    " and before "Public...
 Page 1, fourth paragraph, ( 2 ), a statement should be added

                                                        was
 stating "demonstrate, as of the date the applicati

 submitted, success...
                                                    used" should
 Page 2, second full paragraph, second line, "to be
 be replaced with li to be appropriated.
 Page 2, last paragraph, first line, "100 grantees and

  subgrantees.
                                       who" should be replaced

  Page 2, last paragraph, last line, "
 wi th " which.


  Page 5, first line, " The block grant was cut right before the

  waiting list dollars came, so the waiting list dollars didn't

                                      us to continue at the same

  increase anything, it just allowed            for Applicatio

  level. " This is supplantation. The Request 

  clearly stated that the waiting list funds were not to be used

  to substitute/supersede State funds, which were past.
                                                   meant to

  continue assisting programs as they had in the 


   Page 5, first line, it should, also, be clarified      that any

                                                      s apportionment

   reduction in the block grant was in the State'

   to the subgrantees of the block grant hisfunds   which
                                               sentence   the Federal

                                                        without

   governent     awarded to the      State.
                                              governent reduced the

   explanation suggests that the Federal 

   block grant to the State which it did not.

                                              S SUCCESS AR TEMPERED BY
   page 7, " RESPONDENTS' VIEW OF PROGRA' The report should include

   CONCERNS OVER CONTINUED FUNDING.
   the statement that States were
                                              reqired to
                                                   provide letters of
   assurance giving applicants, submitted under the state
   umbrella application, top priority"       for continued future

                                      termnated.

    funding once the Federal grant 

                                             sentence, since

    Page 9, third full paragraph,(except
                                     fourth for
                                             
 minor changes) costs
    const:. ruction and renovation
    were not allowed in th legislation for the grants, we are
      concerned with this 

                             plication that grantees have expended
                                        items which were not

Federal funds for heavy construction

allowed.
Page 8, last sentence, it should be clarified whether or
                                                       the award

                             governent
was delayed from the Federal 
           to the $tate    other
qrantee or was delayed from the State to the subgrantees.


The following statements concern 

                                    av in recei vina funds which
we believe should be more clearly attributed to the States and

not to the Federal program:

                                                    "Funds were
Page 2, first complete paragraph, second. sentence,
usually awarded quickly, with priority going to those treatment
programs judged to have the greatest need to expand their

trea tment. "
Page 8, fourth paragraph, last sentence, "One State respondent

                                                    programs
voices the concern of many when he admits that the '

 (in the State umrella grant) experienced even bigger delays to
get through our bureaucracy.

Page 9, first paragraph, end of the third line
reasons for grantees requiring
extensions, "
                                                  slow addresses

                                             ( 1)which startups
                           funding...
due to delays in obtaining 

                                                                                           ::--:.,

               DEPARTMENT OF HEALTH &. HUMAN SERVICES             J;:J  t.t'
                                                                                           '-I­
                                                                               ,ece of the Secetary
;,."'la
                                                                                 ashingon . D. C.   20201


                                      JU   1 / 199/



            TO:.	       Richard P. Kusserow

                        Inspector General

           FROM:	       Assistant Secretary for

                        Planning and Evaluation

           SUBJECT:	   OIG Draft Report: "Drug Abuse Treatment Waiting List
                       Reduction Grant Program , II OEI-02-90-00420 -- COMMNT
            Thank you for the opportunity to review the above-named draft
           report. I                   think the report provides useful guidance regarding
            the problems posed by one-year qrant programs such as the Waiting
           List Reduction Program. The study also proved timely as it
           contributed to a Congressionally required study on this
           I would like to clarify, however, that while the idea for
                                                                                    program.
           study resulted from the routine OIG and ASPE staff level
                                                                                       this
           "brainstorminq" discussions , the study should not be
           characterized as one that was formally 

                                                                    equested by ASPE.

          If you have any questions , please call Elise Smith at                   245-1870.



                                         Martin H. Gerry



                                                                                                       (-;0
                                                                                            - zmoO
                                                                                                    G') 1"11 rT1
                                                                                                  -n "j

                                                                                               rn -- , .
                                                                                            V1 ::7 -.
                                                                                                   VJ

                                                                                                        c:


          PDIC!

          DIG-AS

          DIG-EI

          DIG­

          AIG-MP
       V"
          OGC/IG
          EX BEC

          DATE
                                                                                                  I&VU
                     "20247:10285                 HHS DRUG COl:NSEL
18' /91    10: 26	



          DEPARTMENT OF HEALTH &. HUMAN SERVICES	                       Counsl to the Seretary
                                                                        for Org Aase PoliCy

                                                                        wasnington. D.   C.


             RATO DICKU
                         NSORGE

                         rMBA

                         cc TO'1
                         FO    DRABPO
      SUEC:	             Draft Repfirt      of the Of Ice of Inspector General entitled
                         DruG AbYsl Yreatment Wa                       .duct'olJ Granl
                         proeram          COMMEN


             I am trsmitg                mment from the Ofce of National Dru control      poncy
                                                  revased and al
                              to you 	

              ravew of   th doent         whic                        ors. I understad that
      (ON DC?)
        C. Comolli of my st
                          has spoken with Emlie
      ONDCP reiew. preas let me know of an quG$ns you
                                                       Baal
                                                   from your offce concerning the
                                                      may have concerng these
      comments.

             Thank you for your atentn    to this matter.


      AITACH
                                                  ~~~                                                          :!                            =-             003
                               2024750US                                                  HaS DRUG COliNSEL
,'1.2/91      10: 26




                                                                            July 3, 1991




  no:
  kEORAUH !'

  ST.nC1:
                               KA BAS -_
                               Barar
                                                           us. T
                                                                'tetagl1a




                                                                                                       aiti             L.s             e1:iQn Grant
                                rogram

 Hak-, 80m for the c!lay in                                                   rQ                 1ng. Belew are C!oltents along
 \!ith SQme pa .a with ecU:ts.

 'ms
 Red
              reRepo 'ti:
               OQ
                         is                                1y a 


                                                           wa p
                                                                                                 ve
                                                                                                b7 on far
                                                                                                         of                    't Wa:i:
                                                                                                                                      Ii:
                                                                                                                                                 L:t:
 reviews tM
 11s1:8. !' %G'
                                                  1J

                                                                            t'on
                                                                                           &D he i1:                    ha xew:
                                                                                                                              leg!.slat:ve
 P:epQ Mls i.uding
                                                                                           aurt cu 





                       ua= 'tt
                       .81.
                                                           li                       u.
                                                                               iI g:aD.
                                                                                                   ar I1                uec
                                                                                                                        1. 8
                                                                                                                               fO# "t soe
                                                                                                                                                 oint
                              we abc1                              us
                                fOJ



                                                                                                               2J't
                                                                                                                               ve gc

                                                                             :t't to                              't se'ton 510             Of
                                           bUl                  wbah                                     ,'t
                                                                                                               cr:!t:.ortes as
                       8\
                       i: Capa1:

                       tA.
                       oppo
                                                  lon

                                                  . Ou CB
                                                                               10



                                                                            g%aM
                                                                                    aJow f
                                                                                          pe                    'tstu'tbo8V8r
                                                                                                                         1e:laJUOD of
                                                                                                                               0K ma

                       re
                        lm"
                                      th




                                           fu1:                             aD;ta 1:
                                                                                                cn.
                                                                                                ha'W
                                                                                                               ":!"ft                   of di"or
                       cl
                       SI7Ii't
                                           a. tmaz
                                  Uc wa of 

                                                                             dehi1:     of a wd:
                                                                             ...-r.f Ift a wa'tg Ur.
                                                                                                                                        lu't aD a

 ba on)'ar              B'a:tea ;f                                                              'tt
                                                                                                 , i1: f
                                                                       ID cf i: gran1: have read..
                                                                                                                          't stat:e              ;i;t :La


    1ons
 to HH.
                                  c:t: es
                                  h July l5                                 an         'tor                     uve DO s\1:t.te4 data
 In. add 1:1cm,
 2.0, 073 tdou.
                              thHowve,
                                 :EG
                                       't
                                                  report                       t 1:
                                                                             () :report 't
                                                                                                       wa:               11s     prem
                                                                                                                                                 88:t:ed
                                                                                                                                             i:ba:t
                                                                                                                  $101: we               act1y
                                                                                                                  CCs

 HB h& IX 
                   CI:mt:on                                                     I=


 creetoo. 'rfor.                                        th              :tG repel:          t    stuld 8'1: thi: 20, 073 8101:
 we  ftmed.
